No. 19In the

Supreme Court of the United States

KHALIL WILLIAMS,
Petitioner,
v.
HOUSING OPPORTUNITIES FOR PERSONS
WITH EXCEPTIONALITIES,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Jon C. Goldfarb
Counsel of Record
L. William Smith
Wiggins Childs Pantazis Fisher
Goldfarb, LLC
The Kress Building
301 19th Street North
Birmingham AL 35203
(205) 314-0500
wsmith@wigginschilds.com
Counsel for Petitioner
292716

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
In McDonnell Douglas Corp. v. Green and its progeny,
this Court “set forth the basic allocations of burdens
and order of presentation of proof in a Title VII case
alleging discriminatory treatment.”1 In Burdine, the
Supreme Court subsequently held that “[t]he burden of
establishing a prima facie case of disparate treatment is
not onerous,” and that to establish a prima facie case, the
plaintiff need only show that she experienced an adverse
employment action “under circumstances which give rise
to an inference of unlawful discrimination.”2 However,
in cases where comparator evidence is not available, the
Eleventh Circuit does not utilize the burden-shifting
framework but instead applies a “convincing mosaic”
approach, under which “[a] triable issue of fact exists if
the record, viewed in a light most favorable to the plaintiff,
presents ‘a convincing mosaic of circumstantial evidence
that would allow a jury to infer intentional discrimination
by the decisionmaker.’”3 Applying this approach, the
court below concluded that the decisionmaker’s racial
slur uttered when she discharged the African-American
plaintiff was not sufficient evidence of race discrimination.
The question presented is:
What test should courts use in evaluating motions
for summary judgment in discrimination cases when the
1. Tex. Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248, 252,
101 S. Ct. 1089, 1093 (1981) (discussing , 411 U.S. 792, 93 S. Ct.
1817 (1973)).
2. Id. at 253.
3. Khalil Williams v. Housing Opportunities for Persons
with Exceptionalities, No. 18-13600, at 7 (11th Cir., Jul. 15, 2019)
(“App. Op.”).

ii
evidence needed to establish a traditional McDonnell
Douglas prima facie case is not available?

iii
PARTIES TO THE PROCEEDING
The caption contains the names of all the parties to
the proceedings below.

iv
PROCEEDINGS IN OTHER COURTS
Williams v. Housing Opportunities for Persons with
Exceptionalities, No. 18-13600, U.S. Court of Appeals for
the Eleventh Circuit. Judgment entered on July 15th, 2019.
Williams v. Housing Opportunities for Persons with
Exceptionalities, 2:17-cv-00468-ACA, U.S. District Court
for the Northern District of Alabama, Southern Division.
Judgment entered on July 31st, 2018.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING  . . . . . . . . . . . . . .  iii
PROCEEDINGS IN OTHER COURTS  . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISION . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 11
A. The Circuits Have Established Conflicting
Approaches to Evaluating Non-Comparator
Circumstantial Evidence in Employment
Discrimination Cases . . . . . . . . . . . . . . . . . . . . . . 14

vi
Table of Contents
Page
(1) The Eleventh Circuit is the Only Circuit
that Continues to Apply the “Convincing
Mosaic” Approach as a Legal Test  . . . . . . 18
B. The “Conv incing Mosaic” Approach
Causes Courts to Improperly Weigh
the Evidence at Summary Judgment,
Leading to Inconsistent Results  . . . . . . . . . . . . 19
C. In Steering Courts to Weigh the Evidence,
the “Convincing Mosaic” Approach is in
Conflict With McDonnell Douglas and Its
Progeny . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
D. This Case is an Ideal Vehicle for Certiorari
Bec ause Appl ic at ion of a Mod i f ied
McDonnell Douglas Approach Would Have
Reached a Different Result . . . . . . . . . . . . . . . . .24
E. Those Circuits Which Have Rejected the
“Convincing Mosaic” Approach Are Further
Conf licted Over Whether McDonnell
Douglas Remains Viable in Evaluating NonComparator Circumstantial Evidence at
Summary Judgment  . . . . . . . . . . . . . . . . . . . . . . 26
F.

Certiorari Should Be Granted so that
the Court May Reiterate the Value of
McDonnell Douglas in Evaluating All
Forms of Circumstantial Evidence . . . . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CIRCU I T, FI LED
JULY 15, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — MEMORANDUM OPINION OF
THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ALABAMA, SOUTHERN DIVISION, FILED
JULY 31, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT,
FILED SEPTEMBER, 10, 2019 . . . . . . . . . . . . . . . 33a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Ahmed v. Johnson,
752 F.3d 490 (1st Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 16
Alkhatib v. Steadman,
2011 WL 5553775 (S.D. Ala. 2011)  . . . . . . . . . . . . . . 22
Ash v. Tyson Foods, Inc.,
546 U.S. 454, 126 S. Ct. 1195 (2006) . . . . . . . . . . . . . 30
Bahrami v.
Maxie Price Chevrolet-Oldsmobile, Inc.,
2014 U.S. Dist. LEXIS 187980
(N.D. Ga. Aug. 4, 2014) . . . . . . . . . . . . . . . . . . . . . . . . 22
Burton v. Teleflex Inc.,
707 F.3d 417 (3d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . 25
Bush v. Gulf Coast Elec. Coop., Inc.,
2015 WL 3862728 (N.D. Fla. June 11, 2015)  . . . . . . 22
Christian v.
S.C. Dep’t of Labor Licensing & Reg.,
651 Fed. Appx. 158 (4th Cir. 2016) . . . . . . . . . . . . . . . 18
Dieudonne v. Yardley Car Co.,
2019 U.S. Dist. LEXIS 143763
(S.D. Fla. Aug. 19, 2019) . . . . . . . . . . . . . . . . . . . . . . . 21

ix
Cited Authorities
Page
Fuller v. SL Ala., LLC,
56 F. Supp. 3d 1232 (M.D. Ala. 2014)  . . . . . . . . . . . . 20
Furnco Constr. Corp. v. Waters,
438 U.S. 567, 57 L. Ed. 2d 957, 98 S. Ct. 2943
(1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Hicks v. City of Tuscaloosa,
870 F.3d 1253 (11th Cir. 2017)  . . . . . . . . . . . . . . . . . . 22
Holland v. Gee,
677 F.3d 1047 (11th Cir. 2012)  . . . . . . . . . . . . . . . . . .  17
Khalil Williams v. Housing Opportunities for
Persons with Exceptionalities,
2:17-cv-00468-ACA (N.D.Al. Jul. 31, 2018) . . . . . . . . . 5
Makky v. Chertoff,
541 F.3d 205 (3d Cir. 2008) . . . . . . . . . . . . 12, 16, 25, 29
McDonnell Douglas Corp. v. Green,
411 U.S. 792, 93 S. Ct. 1817,
36 L. Ed. 2d 668 (1973) . . . . . . . . . . . . . . . . . . . . passim
Nagle v. Vill. of Calumet Park,
554 F.3d 1106 (7th Cir. 2009) . . . . . . . . . . . . . . . . . . . 20
Ortiz v. Werner Enters., Inc.,
834 F.3d 760 (7th Cir. 2016) . . . . . . . . . . . . . . . . passim

x
Cited Authorities
Page
Reaves v. Wayne Automatic Fire Sprinklers, Inc.,
2012 U.S. Dist. LEXIS 191198
(M.D. Fla. Aug. 21, 2012) . . . . . . . . . . . . . . . . . . .  22-23
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) . . . . . . . . . . . . . . . . . . . . . . . 5, 7, 24
Silverman v. Bd. of Educ.,
637 F.3d 729 (7th Cir. 2011) . . . . . . . . . . . . . . . . .  16, 17
Smith v. Lockheed-Martin Corp.,
644 F.3d 1321 (11th Cir. 2011)  . . . . . . . . . . . . . . . .  9, 16
Smith v. Metro Mech., Inc.,
No. 2:16-CV-1107-KOB, 2018 WL 1064410
(N.D. Ala. Feb. 27, 2018) . . . . . . . . . . . . . . . . . . . . . . . 20
Swierkiewicz v. Sorema N.A.,
534 U.S. 506, 122 S. Ct. 992 (2002) . . . . . . . . . . . . . . 15
Teamsters v. United States,
431 U.S. 324, 52 L. Ed. 2d 396,
97 S. Ct. 1843 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Tex. Dep’t of Cmty. Affairs v. Burdine,
450 U.S. 248, 101 S. Ct. 1089 (1981)  . . . . . . . . . passim
Trans World Airlines, Inc. v. Thurston,
469 U.S. 111, 105 S. Ct. 613,
83 L. Ed. 2d 523 (1985) . . . . . . . . . . . . . . . . . . . . . . . . 28

xi
Cited Authorities
Page
Troupe v. May Department Stores Co.,
20 F.3d 734 (7th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 27
Wagner v. Gallup, Inc.,
788 F.3d 877 (8th Cir. 2015) . . . . . . . . . . . . . . . . . . . .  17
Williams v. Cleaver-Brooks, Inc.,
2012 WL 6151141 (M.D. Ga. Dec. 11, 2012)  . . . . . . . 21
Young v. UPS,
135 S. Ct. 1338 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 28
Statutes and Other Authorities
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1981  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
42 U.S.C. § 2000e-2(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Goldberg, Suzanne, Discrimination by Comparison,
120 Yale L.J. 728 (2011) . . . . . . . . . . . . . . . . . . . . . . . 14
Sperino, Sandra: Beyond McDonnell Douglas,
34 Berkeley J. Emp. & Lab. L. 257 (2013) . . . . . . . . 11

1
PETITION FOR A WRIT OF CERTIORARI
K halil Williams (“ Williams” or “Petitioner”)
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Eleventh Circuit.
OPINIONS BELOW
The unpublished opinion of the Eleventh Circuit
is available at 2019 WL 3072470. The district court‘s
unpublished memorandum and order granting the
respondent’s motion for summary judgment is available
at 2018 WL 3631695.
JURISDICTION
The judgment of the court of appeals was entered
on September 10, 2019, following the Eleventh Circuit’s
denial of the plaintiff’s timely petitions for rehearing and
for rehearing en banc. This Court’s jurisdiction is invoked
under 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISION
Title VII of the Civil Rights Act of 1964 provides in
pertinent part:
It shall be an unlawful employment practice
for an employer— (a) to fail or refuse to hire
or to discharge any individual, or to otherwise
discriminate against any individual with
respect to his compensation, terms, conditions,
or privileges of employment, because of such

2
individual‘s race, color, religion, sex, or national
origin;
42 U.S.C. § 2000e-2(a).
STATEMENT OF THE CASE
Khalil Williams, who is African-American, worked
for HOPE as a direct care provider at a group home for
individuals with disabilities prior to his termination in
May 2016.1 There was no occasion during his employment
when he acted inappropriately or did anything warranting
discipline. 2
One Wednesday, May 4, 2016, Williams’s white
supervisor, Debra Sokol, called Williams and asked him
to work the next day, which was not one of his regularly
scheduled shifts. 3 Williams told Sokol he could not work
the shift because he planned to attend his own graduation
from trade school.4 Sokol then told him, “Either you come
in or you don’t come back.”5 Sokol called Williams again on
Thursday, May 7 as soon as the office opened and told him
“I have a paper here at the office that you signed stating
if I need you to work overtime you will be available.”6
1. Deposition of Khalil Williams (“Williams Dep.”) at 7:1420, 11:24-12:3.
2. Deposition of Debra Sokol (“Sokol Dep.”) at 122:16-25.
3. Williams Dep. at 24:22-27:5; Sokol Dep. at 72:1-4.
4. Williams Dep. at 25:23-26:6.
5. Id. at 30:10-20.
6. Id. at 31:2-25.

3
She told Williams to “come on over and we’ll read the
paper.” 7 Williams arrived at the office as requested. 8
When Williams entered, Sokol said to him, “Let’s go in
the kitchenette and read this paper.” 9
The following exchange then occurred, as summarized
by Williams in his deposition:
When she started to read the paper, she said
if available, can you work overtime? That’s
when I said, Ms. Debra, we need to stop right
there? Stop? I said yes, ma’am. I said the
paper specifically says if available, and I have a
legitimate excuse why I’m not available. Okay.
After that, that’s when she cursed me. She said,
I can’t stand your black ass. I called her name,
Ms. Debra. Okay. After I said Ms. Debra, that’s
when she hauled off and went berserk...10
Sokol then launched into a string of abusive profanities
in a tirade that lasted for two or three minutes, ending
with her slamming down a book and walking out of the
kitchen.11 Sokol next ran into her office, slammed the
door and locked it, took the chair from under her desk
and crouched under her desk.12 Before Sokol slammed
7. Id. at 32:12-21.
8. Id. at 33:5-34:5.
9. Id. at 36:7-11.
10. Id. at 36:17-37:2 (emphasis added).
11. Id. at 36:23-37:16, 42:1-18, 43:10-23.
12. Id. at 45:20-25.

4
the door, she told Williams to “get out of here. Get out of
this office.”13
Williams “was just standing in the middle of the hall
to the office...”14 “I haven’t done nothing wrong. I haven’t
moved. I ain’t gave [her] a sign of any threat. I’m standing
there with my mouth wide open because I’m in awe. What
did I do to deserve this?”15 Williams then spoke through
the glass, with Sokol crouching under her desk inside,
saying, “Ms. Debra, you had made your decision, and I
am going to stand by it. Thank you.”16
Williams’s employment was terminated at this point
and he left the office.17 Williams did not work any more
shifts because he was fired.18
Williams filed suit, alleging one count of wrongful
termination under Title VII and 42 U.S.C. Section 1981.
After discovery, HOPE moved for summary judgment.
In opposing summary judgment, Williams argued that a
reasonable jury could infer that race discrimination was
at least a motivating factor behind the termination of his
employment based on the decisionmaker’s statement “I
13. Id. at 47:14-17.
14. Id. at 46:19-20.
15. Id. at 46:19-24.
16. Id. at 47:6-19.
17. Id. at 47:18-25; 49:15-24. Sokol disputes that Williams was
terminated. See Sokol Dep. at 144:17-145:4.
18. Williams Dep. at 49:8-50:21.

5
can’t stand your black ass” at the time of his termination.19
Citing Reeves v. Sanderson Plumbing Prods., Inc., 530
U.S. 133, 147 (2000), Williams further argued that a
reasonable jury could infer intentional discrimination
because Defendant’s explanation of its decision was
unworthy of credence, as a reasonable jury could infer
that Sokol, the decisionmaker, lied when she testified that
Plaintiff abandoned his job, and that he in fact was fired. 20
The district court correctly recognized that Mr.
Williams had been terminated: “for purposes of summary
judgment, the court has viewed the evidence in the light
most favorable to Mr. Williams and has concluded that
HOPE terminated his employment.” 21 The district court
further correctly held that “Ms. Sokol’s comment ... that
she ‘can’t stand [Mr. Williams’s] black ass’ is relevant
circumstantial evidence ... ‘probative as to whether
[race] animus motivated the decision to terminate’ Mr.
Williams.” 22
However, in applying the Eleventh Circuit’s “convincing
mosaic” framework for evaluating non-comparator
circumstantial evidence, the district court erroneously
held that additional evidence of racial discrimination was
necessary, beyond Ms. Sokol’s statement “I can’t stand
19. Plaintiff’s Opposition to Defendant’s Motion for Summary
Judgment (“Pl. Opp.”) at 8.
20. Id. at 9-10.
21. Khalil Williams v. Housing Opportunities for Persons
with Exceptionalities, 2:17-cv-00468-ACA, at 15 (N.D.Al. Jul. 31,
2018) (“S.J. Op.”).
22. Id. at 10.

6
your black ass” and the falsity of Defendant’s explanation
for his termination. 23
The district court concluded that Plaintiff had not
presented sufficient evidence of race discrimination to
survive summary judgment. The court reasoned, “[t]o be
clear, Ms. Sokol’s comment is offensive and inappropriate
in the workplace or any other setting. But, ‘without
more there is nothing to suggest a causal connection
between [Mr. Williams’s] race and his termination.’” 24
The court further reasoned that Williams’s evidence that
Defendant’s explanation was “unworthy of credence” was
not relevant because “HOPE has not articulated a basis for
Mr. Williams’s termination because it is HOPE’s position
that Mr. Williams abandoned its job,” and therefore
“there is no legitimate, non-discriminatory reason for
Mr. Williams to rebut.” 25 Without further discussing Ms.
Sokol’s “I can’t stand your black ass” comment, the district
court further reasoned that “[e]ven if HOPE had proffered
a race-neutral justification for Mr. Williams’s termination
and even if Mr. Williams had identified a contradiction in
HOPE’s asserted reason for his termination, this evidence
would not assist Mr. Williams without other evidence
suggesting ‘that discrimination was the real reason’ for
the adverse action.” 26
Williams timely appealed the district court’s
judgment. On appeal, Williams argued that “Ms. Sokol’s
23. Id. at 8.
24. Id. at 13.
25. Id. at 15.
26. Id. at 15.

7
racially tinged statement is sufficient to raise an inference
that her decision to terminate Plaintiff was motivated at
least in part by his race.” 27 Williams further argued that
“[t]o the extent that the traditional McDonnell Douglas
framework is applicable, Plaintiff raised ‘a reasonable
inference that the employer discriminated against the
plaintiff’ and thus established a prima facie case under
the Eleventh Circuit’s ‘flexible’ standard by pointing to
Ms. Sokol’s statement ‘I can’t stand your black ass’ made
at the time of his termination.” 28 Williams further argued
that “[t]o the extent the McDonnell Douglas framework is
relevant, Plaintiff is not required to show pretext because
Defendant has not articulated any legitimate reason for
his termination, contending instead that he resigned,
which Plaintiff disputes, setting up a factual dispute that
cannot be resolved at summary judgment.”29 Citing Reeves
v. Sanderson Plumbing, Williams further argued that “[a]
reasonable jury could disbelieve Ms. Sokol’s explanation
based on Plaintiff’s testimony that Ms. Sokol fired him
during a profanity-laced tirade, permitting ‘the trier of
fact ... [to] infer from the falsity of the explanation that
the employer is dissembling to cover up a discriminatory
purpose.’” 30
Responding to Williams’s appeal brief, HOPE argued
that Williams’s evidence failed to meet the threshold of
establishing a “convincing mosaic” because “a ‘mosaic’
is a collection of items” and in its view, a “a single item
27. Brief for Plaintiff-Appellant (“Pl. App. Br.”) at 24.
28. Id. at 24.
29. Id. at 30.
30. Id. at 33 (citing Reeves, 530 U.S. at 147).

8
... cannot form a mosaic.” 31 Williams, replying to this
argument, urged that the court of appeals “should avoid
comparing his evidence to a mosaic,” and reiterated that
“Plaintiff’s argument was, and remains, simply that he
has presented ‘enough circumstantial evidence to raise a
reasonable inference of intentional discrimination’ under
Title VII’s ‘motivating factor’ standard.” 32
In evaluating these arguments, the court of appeals
reasoned that Williams had waived any opposition to the
“mosaic” metaphor by not raising it in his initial brief. 33
However, this was incorrect, as Williams consistently
argued his claims under both a McDonnell Douglas and
a “motivating factor” framework, arguing that “[t]o the
extent that the traditional McDonnell Douglas framework
is applicable, Plaintiff raised ‘a reasonable inference that
the employer discriminated against the plaintiff’ and
thus established a prima facie case under the Eleventh
Circuit’s ‘flexible’ standard by pointing to Ms. Sokol’s
statement ‘I can’t stand your black ass’ made at the time
of his termination.” 34 The court of appeals went on to cite
the Seventh Circuit case of Ortiz v. Werner Enters., Inc.,
834 F.3d 760, 764-65 (7th Cir. 2016) for the proposition
that the term “‘convincing mosaic’ is not a legal test” but
rather “was designed as a metaphor to illustrate why
courts should not try to differentiate between direct and
31. Brief of Appellee (“Def. App. Br.”) at 21 n.3.
32. App. Op. at 8; Reply Brief for Plaintiff-Appellant (“Pl.
App. Rep. Br.”) at 18.
33. App. Op. at 8; Pl. App. Br. at 18, 21.
34. Pl. App. Br. at 24.

9
indirect evidence.” 35 In reviewing the district court’s
decision, the court of appeals passed on the question
of whether to apply a non-comparator version of the
McDonnell Douglas framework because, in the court of
appeals’s words, “Williams concedes in his brief that he
‘does not rely on establishing a traditional McDonnell
Douglas prima facie case.’”36 Quoting the Eleventh Circuit
case of Smith v. Lockheed Martin, the appeals court panel
instead proceeded under the formulation that “[a] triable
issue of fact exists if the record, viewed in a light most
favorable to the plaintiff, presents a convincing mosaic of
circumstantial evidence that would allow a jury to infer
intentional discrimination by the decisionmaker.” 37
The court of appeals properly recognized that Ms.
Sokol’s “I can’t stand your black ass” comment, made
during the conversation in which she terminated the
plaintiff’s employment, “evidences discriminatory animus
and is unbefitting of any workplace.” 38 However, the court
of appeals reasoned that “a reasonable jury could not find
that she fired him because of his race based only on that
statement because its content bears no relation to the
termination decision.” 39 The court of appeals reasoned
that “Sokol’s statement does not imply that race had any
influence on Sokol’s personnel decisions, as a general
matter or in Williams’s case. Accordingly, temporal
35. Id.
36. App. Op. at 7 (emphasis added).
37. Id. at 7.
38. Id. at 8.
39. Id. at 8 (emphasis added).

10
proximity aside, without additional evidence, we must
conclude that Sokol’s remark was unconnected to her
termination decision.”40
The panel further reasoned that “[e]ven if we were
to agree with Williams that HOPE’s explanation of his
resignation is unworthy of credence, we could still conclude
that the record lacked sufficient evidence from which a
reasonable jury could find that he was fired because of
his race.”41 The panel reasoned that “other evidence in the
record counsels against a finding that Sokol fired Williams
because of his race. He testified that her comment was
‘very much out of character,’ . . . and after his separation,
she filled his position with people of the same race.”42 The
panel concluded, “Though we acknowledge the possibility
that a plaintiff who makes no attempt to establish a prima
facie case under McDonnell Douglas may nonetheless
survive summary judgment based in part on proof that
the employer’s proffered justification is false, we conclude
that such a plaintiff would need stronger evidence of
intentional discrimination than Williams has offered in
the instant case.”43
The plaintiff timely filed a petition for panel rehearing
and rehearing en banc. The court of appeals denied the
petition.

40. Id. at 11 (emphasis added).
41. Id. at 12.
42. Id. at 9.
43. Id. at 14.

11
REASONS FOR GRANTING THE PETITION
The question presented is exceedingly important.
Over the years, the McDonnell Douglas burden-shifting
framework has proved highly effective in organizing a
plaintiff’s circumstantial evidence of discrimination and
enabling courts to reach summary judgment rulings
consistent with the statutory provisions of Title VII and
the Rule 56 standard. The most flexible articulation of
the McDonnell Douglas framework comes from Burdine,
where the Court stated that “[t]he burden of establishing
a prima facie case of disparate treatment is not onerous”
and that to establish a prima facie case, the plaintiff need
only show that she experienced an adverse employment
action (in Burdine, a denial of promotion) “under
circumstances which give rise to an inference of unlawful
discrimination.”44 However, in cases where the plaintiff
relies on non-comparator circumstantial evidence, such
as comments that reflect discriminatory intent, reliance
on McDonnell Douglas and Burdine has eroded in the
lower courts.45 Only one circuit, the Third, continues to
utilize the Burdine burden-shifting framework in cases
where plaintiffs rely on non-comparator circumstantial
evidence. In the Eleventh Circuit, where courts ask
whether the plaintiff has produced a “convincing mosaic”
of circumstantial evidence, courts routinely weigh the
evidence, resolve credibility disputes, and otherwise
venture beyond the courts’ proper role under the summary
judgment standard when utilizing a holistic approach
outside the confines of the burden-shifting framework.
44. Tex. Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248, 253,
101 S. Ct. 1089, 1094 (1981).
45. See Sperino, Sandra: Beyond McDonnell Douglas, 34
Berkeley J. Emp. & Lab. L. 257 (2013).

12
This case is a proper vehicle for certiorari because
the plaintiff’s testimony that the decisionmaker told him
“I can’t stand your black ass” in the same conversation
when she terminated his employment would have sufficed
to establish a prima facie case of discrimination under
the modified McDonnell Douglas / Burdine framework
employed by the Third Circuit, which has held that a
plaintiff may establish a prima facie case of discrimination
by pointing to evidence that “could give rise to an inference
of intentional discrimination,” an approach properly
cabined within the summary judgment standard. 46
Likewise, the factual dispute between the employer’s
explanation that the plaintiff abandoned his job and his
testimony that he was fired allows a reasonable inference
of pretext. Nonetheless, both the trial court and the
Eleventh Circuit found the evidence of discrimination to be
insufficiently convincing. The court of appeals, explicitly
weighing the plaintiff ’s evidence of discrimination
against evidence that the employer contended showed
the employer’s lack of intent to discriminate, concluded
“that the record lacked sufficient evidence from which a
reasonable jury could find that he was fired because of
his race.”47
Because the Eleventh Circuit reached a different
result from that which would be dictated under the
McDonnell Douglas framework, its decision is inconsistent
with this Court’s precedents, including Burdine. It is
also inconsistent with the Seventh Circuit’s rejection of
the “mosaic” metaphor as a legal standard. However,
the Seventh Circuit’s holistic approach and its apparent
jettisoning of McDonnell Douglas as one of a “rat’s nest
46. Makky v. Chertoff, 541 F.3d 205, 214 (3d Cir. 2008).
47. App. Op. at 12.

13
of surplus ‘tests’” are also inconsistent with this Court’s
precedents. Because of the confusion in the circuits over how
to evaluate the various forms of circumstantial evidence
that turn up repeatedly in employment discrimination
cases, this Court’s intervention is necessary to return
McDonnell Douglas to its proper role as the road map
for courts considering motions for summary judgment,
including in cases such as the one at bar where the plaintiff
relies on non-comparator circumstantial evidence, and to
prevent courts from improperly weighing such evidence
to determine whether it is “convincing.”
The panel’s statement that Williams had waived any
opposition to the “mosaic” metaphor by not raising it in
his initial brief does not render this case an inappropriate
vehicle for certiorari. The plaintiff did not rely on the
“mosaic” framework in his opening brief; rather, he
argued that “[t]o the extent that the traditional McDonnell
Douglas framework is applicable, Plaintiff raised ‘a
reasonable inference that the employer discriminated
against the plaintiff’ and thus established a prima facie
case under the Eleventh Circuit’s ‘flexible’ standard by
pointing to Ms. Sokol’s statement ‘I can’t stand your black
ass’ made at the time of his termination.”48 Accordingly,
Williams did not waive the argument that a “flexible”
version of McDonnell Douglas framework applies.
Instead, the court of appeals passed on the question
of whether to apply a non-comparator version of the
McDonnell Douglas framework because, in the court of
appeals’s words, “Williams concedes in his brief that he
‘does not rely on establishing a traditional McDonnell
Douglas prima facie case.”49
48. Pl. App. Br. at 24.
49. App. Op. at 7 (emphasis added).

14
Ensuring that litigants have access to the McDonnell
Douglas burden-shifting framework is essential to
fulfilling the statutory promise of Title VII. As one
commentator has observed, over-prioritizing comparator
evidence “to the point that comparators are treated
not only as a useful heuristic for evaluating claims but
also as an essential element of a discrimination claim”
tends to minimize other categories of evidence of
intentional discrimination, even though “the case law
that addresses harassment and stereotyping makes clear
[that] objectionable trait-based acts and statements occur
in the absence of a comparator.”50 Certiorari should be
granted so that the Court may clarify that non-comparator
circumstantial evidence (for instance, the statement by the
decisionmaker here “I can’t stand your black ass” made
at the moment she terminated the plaintiff’s employment)
may give rise to the same inferences and presumptions
as comparator evidence, satisfying a plaintiff’s first stage
burden under the McDonnell Douglas burden-shifting
framework.
A. The Circuits Have Established Conf licting
Approaches to Evaluating Non-Comparator
Ci r cu m st a ntia l E v idenc e i n Employ ment
Discrimination Cases.
In McDonnell Douglas Corp. v. Green, this Court
“set forth the basic allocations of burdens and order
of presentation of proof in a Title VII case alleging
discriminatory treatment.”51 In subsequent decisions, the
50. Goldberg, Suzanne, Discrimination by Comparison, 120
Yale L.J. 728, 733-34, 745. (2011).
51. Burdine, 450 U.S. at 252, 101 S. Ct. at 1093 (discussing
McDonnell Douglas Corp., 411 U.S. 792, 93 S. Ct. 1817, 36 L. Ed.
2d 668 (1973)).

15
Supreme Court cautioned that “the precise requirements
of a prima facie case can vary depending on the context
and were ‘never intended to be rigid, mechanized, or
ritualistic’”; that “[t]he specification . . . of the prima
facie proof required ... is not necessarily applicable in
every respect to differing factual situations”; and that
in McDonnell Douglas the Court “did not purport to
create an inflexible formulation” for a prima facie case. 52
In Burdine, as stated above, the Supreme Court made
clear that a plaintiff may establish a prima facie case by
producing evidence from which a reasonable jury could
conclude that an adverse employment action occurred
“under circumstances which give rise to an inference of
unlawful discrimination.”53 Nevertheless, the appellate
courts have drifted away from the fixed guideposts of
these cases, embarking on conflicting approaches that
lead to various and often inconsistent results, with most
of the circuits abandoning McDonnell Douglas altogether
when confronted with circumstantial evidence that does
not include a comparator outside the plaintiff’s protected
class.
In cases where the plaintiff relies on such noncomparator circumstantial evidence, all but one of the
circuits has shunted McDonnell Douglas aside. The Third
Circuit is the only Circuit that continues to apply the
McDonnell Douglas / Burdine framework consistently
to cases where the plaintiff does not rely on comparator
evidence. In such cases, a plaintiff in the Third Circuit may
52. Swierkiewicz v. Sorema N.A., 534 U.S. 506, 512, 122 S.
Ct. 992, 997 (2002) (quoting Furnco Constr. Corp. v. Waters, 438
U.S. 567, 577, 57 L. Ed. 2d 957, 98 S. Ct. 2943 (1978)); McDonnell
Douglas at 802, n. 13; Teamsters v. United States, 431 U.S. 324,
358, 52 L. Ed. 2d 396, 97 S. Ct. 1843 (1977).

53. Burdine, 450 U.S. at 253, 101 S. Ct. at 1094.

16
establish a prima facie case of discrimination by showing
that: “(1) s/he is a member of a protected class; (2) s/he was
qualified for the position s/he sought to attain or retain;
(3) s/he suffered an adverse employment action; and
(4) the action occurred under circumstances that could give
rise to an inference of intentional discrimination,” echoing
Burdine.54 The addition of the word “could” is necessary
because Burdine predates the Civil Rights Act of 1991
which guarantees employment discrimination plaintiffs
the right to a jury trial. By phrasing the Burdine test
conditionally, the Third Circuit’s formulation incorporates
the summary judgment standard under which the jury, not
the court, is empowered to draw reasonable inferences,
weigh the evidence, and resolve factual disputes.
The Eleventh Circuit Court of Appeals, by contrast,
dispenses with McDonnell Douglas and its progeny entirely
when confronted with non-comparator circumstantial
evidence. Instead, the Eleventh Circuit relies on a
“convincing mosaic” approach, under which “[a] triable
issue of fact exists if the record, viewed in a light most
favorable to the plaintiff, presents ‘a convincing mosaic
of circumstantial evidence that would allow a jury to
infer intentional discrimination by the decisionmaker.’”55
The First and Eighth Circuits have also referenced the
“convincing mosaic” standard, typically citing either to
cases from the Eleventh or the Seventh Circuits. 56 The
54. Makky, 541 F.3d at 214.
55. Smith v. Lockheed-Martin Corp., 644 F.3d 1321, 1328
(11th Cir. 2011) (citing Silverman v. Bd. of Educ., 637 F.3d 729,
734 (7th Cir. 2011)).
56. Ahmed v. Johnson, 752 F.3d 490, 497-98 (1st Cir. 2014)
(“For purposes of the summary judgment analysis, then, the
question becomes whether a reasonable jury could find that the

17
Eleventh Circuit’s approach differs from the approach
of the Third Circuit because the Eleventh Circuit’s
“convincing mosaic” standard requires trial courts to
weigh the plaintiff’s evidence of discrimination in order
to determine whether it is sufficiently “convincing,” as
opposed to simply asking whether a reasonable jury
“could” draw an inference of intentional discrimination.
The Eleventh Circuit borrowed its “mosaic” approach
from the Seventh Circuit. In Silverman v. Bd. of Educ.,
the case from which the Eleventh Circuit adopted its
“convincing mosaic” approach, the Seventh Circuit
elaborated on the categories of circumstantial evidence
that may be considered as forming part of the “convincing
mosaic”: these include “suspicious timing, ambiguous
statements oral or written, behavior toward or comments
directed at other employees in the protected group,
and other bits and pieces from which an inference of
discriminatory intent might be drawn”; “evidence showing
that the employer systematically treated other, similarly
situated, nonpregnant employees better”; and “evidence
that the plaintiff suffered an adverse employment action
and that the employer’s justification is pretextual.”57

Department’s proffered reason is pretextual and that Ahmed
was in fact denied the promotion because of his religion, race, or
national origin. Stated otherwise, we must determine if ‘there is
‘a convincing mosaic of circumstantial evidence that would allow
a jury to infer intentional discrimination.’”) (citing Holland v.
Gee, 677 F.3d 1047, 1056 (11th Cir. 2012)); Wagner v. Gallup, Inc.,
788 F.3d 877, 883 (8th Cir. 2015) (referencing “convincing mosaic”
standard).
57. Silverman v. Bd. of Educ., 637 F.3d 729, 734 (7th Cir.
2011).

18
Creating a further split between the circuits’ approach
to non-comparator circumstantial evidence, the Seventh
Circuit has now departed from applying the “convincing
mosaic” approach as a “test” or a “legal requirement,”
and has instead held that a court ruling on a motion for
summary judgment in a Title VII case must decide “simply
whether the evidence would permit a reasonable factfinder
to conclude that the plaintiff’s race, ethnicity, sex,
religion, or other proscribed factor caused the discharge
or other adverse employment action.” 58 Similarly, the
Fourth Circuit, in an unpublished opinion, has rejected
the “convincing mosaic” approach in favor of a holistic
standard. 59
(1) The Eleventh Circuit is the Only Circuit that
Continues to Apply the “Convincing Mosaic”
Approach as a Legal Test.
After the Seventh Circuit’s decision in Ortiz, the
Eleventh Circuit is the only Circuit that regularly
continues to apply the “convincing mosaic” approach
as if it were a legal test, divorced from the underlying
“motivating factor” standard of liability of Title VII. The
Eleventh Circuit’s continued reliance on the “convincing
mosaic” approach – even after that approach has been
rejected by the Seventh Circuit – creates a split and
58. Ortiz v. Werner Enters., Inc., 834 F.3d 760, 765 (7th Cir.
2016).
59. Christian v. S.C. Dep’t of Labor Licensing & Reg., 651
Fed. Appx. 158 (4th Cir. 2016) (holding that since the Fourth Circuit
already requires the court to consider evidence of discrimination
in the context of the record as a whole, there is no reason to adopt
the “convincing mosaic” approach).

19
justifies granting certiorari for the purpose of clarifying
the proper approach courts must take in evaluating noncomparator circumstantial evidence.
In addition to being the only circuit that continues to
rely on the “convincing mosaic” approach, the Eleventh
Circuit is among the majority of the circuits that do not
apply the McDonnell Douglas / Burdine burden-shifting
framework in employment discrimination cases involving
non-comparator circumstantial evidence. Instead, the
Eleventh, like most circuits other than the Third, applies
an unstructured approach purporting to evaluate the
evidence “as a whole.” Certiorari is warranted to ensure
that going forward, all circuits utilize the McDonnell
Douglas / Burdine framework in evaluating all forms of
circumstantial evidence in discrimination cases.
B. The “Convincing Mosaic” Approach Causes Courts
to Improperly Weigh the Evidence at Summary
Judgment, Leading to Inconsistent Results.
Although the mosaic metaphor may not be a traditional
“test,” the very use of the phrase “convincing mosaic,”
without reliance on McDonnell Douglas or another
structuring framework, requires trial courts to weigh
the evidence and inevitably results in courts making
unreasoned, seat-of-the-pants judgments that a plaintiff’s
circumstantial evidence either is or is not “enough.” In
the case at bar, reliance on that unstructured approach is
what enabled the Eleventh Circuit to improperly weigh the
decisionmaker’s “black ass” slur against the employer’s
evidence of non-discrimination and conclude that in
order to survive summary judgment, the plaintiff needed
something “more” (though the court did not specify what
that something “more” would be).

20
The problem with the “mosaic” standard is that
by requiring a plaintiff’s evidentiary “mosaic” to be
“convincing,” the court of appeals effectively holds
plaintiffs who rely on non-comparator circumstantial
evidence to a higher summary judgment burden than
it does plaintiffs who rely on comparator evidence.
This creates a split between the Third Circuit, which
applies McDonnell Douglas to plaintiffs relying on noncomparator circumstantial evidence, and the Eleventh,
which does not. In the Eleventh Circuit, plaintiffs
relying on non-comparator circumstantial evidence
must go beyond pointing to circumstances that “could
give rise to an inference of intentional discrimination,”
in the Third Circuit’s phrasing. Rather, in the Eleventh
Circuit, the court must find the plaintiff’s non-comparator
circumstantial evidence to be “convincing,” or, in the
formulation of the Seventh Circuit prior to Ortiz,
“substantially strong” in order to survive summary
judgment, a formulation fundamentally at odds with the
“not onerous” prima facie burden set forth in Burdine.”60
This is evidenced by trial court decisions finding that
a plaintiff’s “mosaic” was not sufficiently “convincing”
to survive summary judgment under the “convincing
mosaic” framework. See, e.g., Fuller v. SL Ala., LLC, 56
F. Supp. 3d 1232, 1250 n.17 (M.D. Ala. 2014) (holding that
“Ms. Fuller’s mosaic is not ‘convincing’); Smith v. Metro
Mech., Inc., No. 2:16-CV-1107-KOB, 2018 WL 1064410, at
*16-17 (N.D. Ala. Feb. 27, 2018) (concluding, “[i]n short, her
mosaic is not convincing. The court will grant summary
judgment...”)
60. “Under the direct method, the inference that the employer
acted based on the prohibited animus has to be substantially
strong.” Nagle v. Vill. of Calumet Park, 554 F.3d 1106, 1118 (7th
Cir. 2009); see also Burdine, 450 U.S. at 253, 101 S. Ct. at 1094.

21
The requirement that non-comparator circumstantial
evidence be found “convincing” implicitly invites courts
to weigh the circumstantial evidence and resolve factual
disputes, as evidence can only be “convincing” if the court
finds itself “convinced,” a formulation at odds with the
court’s role in evaluating a motion for summary judgment.
It should come as no surprise, then, that trial courts
and courts of appeals routinely usurp the jury’s role by
weighing evidence and resolving factual disputes when
they reference the “mosaic” metaphor without structuring
their analysis under McDonnell Douglas or another
analytic framework. The courts’ widespread disregard
of the summary judgment standard in employment
discrimination cases applying the “convincing mosaic”
approach is evidenced by the number of decisions where,
as in the case at bar, the court opines that the evidence is
or is not “enough”, that the evidence is “lacking” in some
undefined way, or that the plaintiff’s evidence would need
to be “stronger” to survive summary judgment. See, e.g.,
Dieudonne v. Yardley Car Co., 2019 U.S. Dist. LEXIS
143763, *10-16 (S.D. Fla. Aug. 19, 2019) (holding that
evidence of the decisionmaker asking Plaintiff, a black
man, how it feels to have “a white man driving around
a black man” is not enough – independently or together
with other evidence – to allow a jury to infer intentional
discrimination, since the time between the comment and
termination is “too attenuated” to meet the “convincing
mosaic” of circumstantial evidence); Williams v. CleaverBrooks, Inc., 2012 WL 6151141, *21-26 (M.D. Ga. Dec.
11, 2012) (holding that “while the Court is in no way
discounting what was said or the effect of the statements
on Plaintiff, the evidence [consisting of Plaintiff ’s
supervisor regularly calling Plaintiff, a black male, “boy”
and a co-worker regularly telling Plaintiff to get his “black

22
ass back to work”], the evidence is not simply enough to
create the required convincing mosaic of circumstantial
evidence needed to overcome the lack of comparator
evidence”); Alkhatib v. Steadman, 2011 WL 5553775, *8
(S.D. Ala. 2011) (“Unfortunately for Alkhatib, the record
he has produced in this case is more than a few tiles short
for a mosaic, let alone a convincing one.”); cf. Hicks v. City
of Tuscaloosa, 870 F.3d 1253 (11th Cir. 2017) (holding that
“there was enough convincing evidence” that the employee
was both discriminated against on the basis of her
pregnancy and that she was retaliated against for taking
her FMLA leave where multiple overheard conversations
using defamatory language plus the temporal proximity
of only eight days from when she returned to when she
was reassigned supported the inference that there was
intentional discrimination); Bush v. Gulf Coast Elec.
Coop., Inc., 2015 WL 3862728, *24-25 (N.D. Fla. June
11, 2015) (holding that Plaintiffs successfully established
the “convincing mosaic” of circumstantial evidence that
would allow the jury to infer that Defendant discriminated
against them based on their gender; and that “enough”
circumstantial evidence of discriminatory animus in
Defendant’s management existed for a jury to conclude
that Defendant took adverse action against Plaintiffs
even when they would not have taken the action had
Plaintiffs been males); Bahrami v. Maxie Price ChevroletOldsmobile, Inc., 2014 U.S. Dist. LEXIS 187980, *59-60
(N.D. Ga. Aug. 4, 2014) (holding that under the “mosaic of
circumstantial evidence” rubric, which included several
racist comments and inconsistent rationales regarding
Plaintiff’s termination, a triable issue of fact exists
to support denial of Defendant’s motion for summary
judgment on Plaintiff’s discriminatory termination claim);
Reaves v. Wayne Automatic Fire Sprinklers, Inc., 2012

23
U.S. Dist. LEXIS 191198, *19-21 (M.D. Fla. Aug. 21, 2012)
(“Thus, when the circumstantial evidence is viewed as
a whole, Plaintiff has presented enough tiles to create
a ‘convincing mosaic’ that would allow a jury to infer
intentional discrimination by Defendant.”)
By contrast, the Third Circuit’s modified McDonnell
Douglas / Burdine approach eliminates the need for
courts to weigh the evidence and make judgments as
to whether that evidence is “enough” or “not enough,”
whether the evidence is or is not “convincing,” or whether
the “mosaic” has enough “tiles”; instead, the Third Circuit
allows courts to focus on evaluating whether disputes of
material fact preclude summary judgment in accordance
with the summary judgment standard, such that the
evidence “could give rise to an inference of intentional
discrimination,” regardless of whether the trial court is
personally “convinced.”
C. In Steering Courts to Weigh the Evidence, the
“Convincing Mosaic” Approach is in Conflict With
McDonnell Douglas and Its Progeny.
Because the “convincing mosaic” approach requires
courts to discount evidence which they do not find
sufficiently “convincing,” use of that standard conflicts
with the Supreme Court’s holding that under the
McDonnell Douglas framework, a plaintiff’s prima facie
burden “. . . is not onerous,” and, in fact, is “minimal.”61
It also conflicts with the summary judgment standard.
As shown by the different outcome that this case would
have had under the Third Circuit’s modified McDonnell
61. Burdine, 450 U.S. at 253; St. Mary’s, 509 U.S. at 506.

24
Douglas / Burdine approach, the “convincing mosaic”
standard minimizes the import of evidence from which
a reasonable jury could conclude that a defendant’s
articulated reason is “unworthy of credence,” which the
Supreme Court has described as “simply one form of
circumstantial evidence that is probative of intentional
discrimination, and it may be quite persuasive” such
that “[i]n appropriate circumstances, the trier of fact can
reasonably infer from the falsity of the explanation that
the employer is dissembling to cover up a discriminatory
purpose.”62 Returning the circuits to a uniform application
of McDonnell Douglas in evaluating non-comparator
circumstantial evidence would ensure that discrimination
plaintiffs are not held to an overly onerous burden in
establishing an initial inference of discrimination, that the
often “quite persuasive” evidence of pretext is returned to
its proper place as the end-stage of the summary judgment
analysis, and that courts do not stray from the Rule 56
standard which requires all reasonable inferences to be
drawn in favor of the non-moving party.
D. This Case is an Ideal Vehicle for Certiorari Because
Application of a Modified McDonnell Douglas
Approach Would Have Reached a Different Result.
The case at bar succinctly illustrates the flaws behind
the Eleventh Circuit’s “convincing mosaic” approach.
Its straightforward facts provide an ideal vehicle for
correcting the divergent approaches the courts of appeals
have taken in drifting away from McDonnell Douglas and
evolving their own unstructured approaches to evaluating
non-comparator circumstantial evidence.
62. Reeves, 530 U.S. at 147.

25
Fi rst , the case prov ides a clea r ex a mple of
“circumstances that could give rise to an inference of
intentional discrimination,” as both the district court
and the court of appeals correctly acknowledged that
Ms. Sokol’s comment, “I can’t stand your black ass,”
made at the moment when she terminated Plaintiff’s
employment, “evidences discriminatory animus...”
Under the Third Circuit’s modified McDonnell Douglas
/ Burdine approach, this finding would suffice to meet
a plaintiff’s “exceedingly light” prima facie burden.63
Summary judgment would then be improper, because the
clear factual dispute over whether Plaintiff resigned or
was terminated would create “a genuine dispute of fact
regarding the credibility of [the employer’s] proffered
reason for her discharge” meaning that “a reasonable fact
finder could find the claim that [the plaintiff] resigned to
be ‘unworthy of credence.’”64
Here, by contrast, in applying the “mosaic” metaphor,
neither the district court nor the panel found the evidence
of Ms. Sokol’s discriminatory animus to be sufficiently
convincing, with the panel further reasoning that
“[e]ven if we were to agree with Williams that HOPE’s
explanation of his resignation is unworthy of credence,
we could still conclude that the record lacked sufficient
evidence from which a reasonable jury could find that he
was fired because of his race.”65 The court’s emphasis on
whether or not Plaintiff’s evidence was “sufficient” shows
that the court was improperly weighing the evidence, or
63. Makky, 541 F.3d at 214.
64. Burton v. Teleflex Inc., 707 F.3d 417, 431 (3d Cir. 2013).
65. App. Op. at 12 (emphasis added).

26
worse, implicitly counting “tiles” in an imaginary mosaic
rather than letting the jury fulfill its role. Seeming to
acknowledge that the plaintiff had produced evidence from
which a reasonable jury could conclude that the employer’s
account that he had resigned as opposed to being fired was
“unworthy of credence,” the panel’s opinion concluded,
“[t]hough we acknowledge the possibility that a plaintiff
who makes no attempt to establish a prima facie case
under McDonnell Douglas may nonetheless survive
summary judgment based in part on proof that the
employer’s proffered justification is false, we conclude
that such a plaintiff would need stronger evidence of
intentional discrimination than Williams has offered in
the instant case,” with the court explicitly weighing the
evidence of discrimination against “other evidence in the
record” which the panel believed “counsel[ed] against a
finding that Sokol fired Williams because of its race.’”66
E. T hose Ci rcuit s W hich Have R ejec t ed the
“Convincing Mosaic” Approach Are Further
Conflicted Over Whether McDonnell Douglas
Remains Viable in Evaluating Non-Comparator
Circumstantial Evidence at Summary Judgment.
A further circuit split has arisen after Ortiz, because
in repudiating the use of the “convincing mosaic” metaphor
as a “test” or as a legal requirement, the Seventh Circuit
in Ortiz also seemed to disparage the continued viability
of the McDonnell Douglas framework in evaluating
circumstantial evidence, placing the Seventh Circuit
in conflict with the Third Circuit and with this Court’s
precedents, including McDonnell Douglas and Burdine.
66. App. Op. at 9 (emphasis added).

27
In Ortiz, the Seventh Circuit provided an overview of
the illogic of treating the “convincing mosaic” approach
as a legal test:
We start with the “convincing mosaic.” This
phrase originated in Troupe and was designed
as a metaphor to illustrate why courts should
not try to differentiate between direct and
indirect evidence. Troupe explained that all
evidence is inferential and cannot be sorted
into boxes. All evidence should be considered
together to understand the pattern it reveals.
But instead of persuading district judges and
litigants to merge “direct” and “indirect”
methods into a unified approach, Troupe was
understood by many as adding a new “test”
that had to be satisfied. How a “mosaic” could
be a “test” rather than a mental picture went
unaddressed-as did the question how such a
legal test could be rooted in the statutes that
govern employment-discrimination cases.
[...]
To make matters worse, this court has itself
occasionally treated “convincing mosaic” as
a legal requirement, even while cautioning in
other opinions that it must not be so understood.
[...] Instead of simplifying analysis, the “mosaic”
metaphor has produced a form of legal kudzu.
Today we reiterate that “convincing mosaic” is
not a legal test ... From now on, any decision of
a district court that treats this phrase as a legal

28
requirement in an employment-discrimination
case is subject to summary reversal, so that the
district court can evaluate the evidence under
the correct standard.67
In the opinion’s core holding, the Seventh Circuit further
ruled that “district courts must stop separating ‘direct’
from ‘indirect’ evidence and proceeding as if they were
subject to different legal standards.”68 Such a rule would
eviscerate McDonnell Douglas and its burden-shifting
approach to evaluating indirect evidence, as the Seventh
Circuit concluded that a court ruling on a motion for
summary judgment case must decide “simply whether the
evidence would permit a reasonable factfinder to conclude
that the plaintiff’s race, ethnicity, sex, religion, or other
proscribed factor caused the discharge or other adverse
employment action.” 69 For this reason, the Seventh
Circuit’s approach also conflicts with the distinction the
Supreme Court has repeatedly drawn between direct and
indirect methods of proof. The court has reiterated this
distinction as recently as 2015, when Justice Breyer wrote
that “[w]e have also made clear that a plaintiff can prove
disparate treatment either (1) by direct evidence that a
workplace policy, practice, or decision relies expressly
on a protected characteristic, or (2) by using the burdenshifting framework set forth in McDonnell Douglas.” 70
67. Ortiz, 834 F.3d at 764-65.
68. Id. at 765.
69. Id.
70. Young v. UPS, 135 S. Ct. 1338, 1345 (2015) (citing Trans
World Airlines, Inc. v. Thurston, 469 U. S. 111, 121, 105 S. Ct. 613,
83 L. Ed. 2d 523 (1985)).

29
Demonstrating the need for correction from the
Supreme Court on how courts should evaluate noncomparator circumstantial evidence, the Seventh
Circuit seemingly lumped the McDonnell Douglas
burden-shifting framework in among the “rat’s nest of
surplus ‘tests’ removed from the law of this Circuit,”
thus creating a split between the Seventh and Third
circuits in their approach to evaluating non-comparator
circumstantial evidence at summary judgment, with the
Third continuing to apply McDonnell Douglas and the
Seventh sweeping aside the time-tested burden-shifting
framework in favor of its “straightforward” approach:
“[t]oday’s decision does not concern McDonnell Douglas
or any other burden-shifting framework, no matter what
it is called as a shorthand. We are instead concerned about
the proposition that evidence must be sorted into different
piles, labeled ‘direct’ and ‘indirect,’ that are evaluated
differently. Instead, all evidence belongs in a single pile
and must be evaluated as a whole. That conclusion is
consistent with McDonnell Douglas and its successors.” 71
F. Certiorari Should Be Granted so that the Court
May Reiterate the Value of McDonnell Douglas in
Evaluating All Forms of Circumstantial Evidence.
The flaw in the Seventh Circuit’s new “single pile”
approach is the same flaw evidenced by the Eleventh
Circuit’s “convincing mosaic” approach: an unstructured,
“straightforward” approach, freed from the time-tested
framework of McDonnell Douglas, leads courts to
improperly weigh the evidence at summary judgment.
This approach requires courts to eyeball the evidence “as
71. Ortiz, 834 F.3d at 766; cf. Makky, 541 F.3d at 214.

30
a whole” and then make a judgment, with no structuring
principle to guide the analysis, as to whether that evidence
is or is not “enough” for a plaintiff to survive summary
judgment and prove intentional discrimination.
The Court should grant certiorari and clarify that in
cases involving non-comparator circumstantial evidence,
courts should utilize the “flexible” McDonnell Douglas /
Burdine framework and allow discrimination plaintiffs
to establish a prima facie case of discrimination by
showing that an adverse employment action occurred
under circumstances “that could give rise to an inference
of intentional discrimination,” and to defeat summary
judgment by pointing to evidence from which a reasonable
jury could infer pretext, as the Third Circuit has correctly
held. In so holding, the Court should clarify that the
“convincing mosaic” metaphor is “unhelpful and imprecise
as an elaboration of the standard” for evaluating noncomparator circumstantial evidence at the summary
judgment stage.72

72. Ash v. Tyson Foods, Inc., 546 U.S. 454, 455, 126 S. Ct. 1195,
1196 (2006).

31
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
Jon C. Goldfarb
Counsel of Record
L. William Smith
Wiggins Childs Pantazis Fisher
Goldfarb, LLC
The Kress Building
301 19th Street North
Birmingham AL 35203
(205) 314-0500
wsmith@wigginschilds.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JULY 15. 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
No. 18-13600
Non-Argument Calendar
KHALIL WILLIAMS,
Plaintiff-Appellant,
versus
HOUSING OPPORTUNITIES FOR PERSONS
WITH EXCEPTIONALITIES,
Defendant-Appellee.
D.C. Docket No. 2:17-cv-00468-ACA
Appeal from the United States District Court
for the Northern District of Alabama
(July 15, 2019)
Before WILLIAM PRYOR, JILL PRYOR and GRANT,
Circuit Judges.
PER CURIAM:
Khalil Williams appeals the district court’s grant of
summary judgment to his former employer, Housing for

2a
Appendix A
Persons with Exceptionalities (“HOPE”), on his claim
that HOPE discriminated against him based on his race
when it terminated him. The district court ruled that
Williams failed to introduce sufficient evidence to support
a reasonable inference that HOPE’s decision to terminate
him was based on his race. Williams argues on appeal
that the district court erred by failing to decide that race
was at least a motivating factor in HOPE’s termination
decision. We disagree. After careful review, we affirm
the district court.
I. BACKGROUND
Williams, who is African-American, worked for
HOPE as a direct care provider.1 In that position, he was
responsible for supervising three group home residents
with special needs and administering their medication.
Williams worked each weekend during the night shift,
although HOPE also expected him to work additional
shifts, depending on his availability. While he worked
weekend nights at HOPE, Williams spent his weekdays
studying air conditioning and refrigeration at a local
community college.
The sequence of events leading to Williams’s
termination began when HOPE’s executive director,
Debra Sokol, called Williams to ask whether he could cover
another employee’s scheduled shift after that employee
1. Because we are reviewing the district court’s grant of a
motion for summary judgment, we recite the facts in the light most
favorable to Williams, the nonmovant. See Hoffman v. Allied Corp.,
912 F.2d 1379, 1383 (11th Cir. 1990).

3a
Appendix A
had called out. Williams responded that he could not cover
the shift because that evening he planned to celebrate his
graduation from the community college program. Sokol
replied to Williams, “either you come in or don’t come
back.” Doc. 18-1 at 10. 2
Sokol called Williams the next morning to remind him
that he had signed an agreement in which he promised as
a condition of his employment to cover extra shifts when
he was available. The two agreed to meet in HOPE’s
office later that day to review the agreement. As the
two conferred and Sokol read the agreement aloud to
Williams, he interrupted her to say that she should not
expect him to cover the extra shift at issue based on that
provision because he had a legitimate excuse as to why
he was unavailable.
Sokol responded to Williams with a profanity-laced
tirade lasting two or three minutes. She first told him:
“I can’t stand your black ass.” Id. at 11. Williams then
asked Sokol for a copy of the agreement but she refused
his request. She instructed him to instead memorize
the document based on her recitation. After uttering
various profanities, Sokol returned the document to a
file cabinet and directed Williams to leave the premises
by saying: “[G]et out of here. Get out of this office.” Id. at
14. Sokol ran into her office to hide from him under her
desk. He then told her, “you have made your decision,”
before he left the office as instructed with the belief that
2. Citations in the form “Doc #” refer to the numbered entries
on the district court’s docket.

4a
Appendix A
Sokol’s instruction amounted to her termination of his
employment. He accordingly elected not to report for his
remaining scheduled shifts.
Williams sued HOPE in federal district court alleging
a single claim of racial discrimination under Title VII and
42 U.S.C. § 1981 arising from his alleged termination.
The complaint alleged that Williams “may prevail under
a mixed- motive theory, as even if [HOPE] had legitimate
reasons for terminating him, race was at least a motivating
factor in the adverse employment actions [it] took against
him, up to and including termination.” Doc. 1 at ¶ 18.
HOPE answered the complaint.
After discovery, HOPE filed a motion for summary
judgment. HOPE argued that Williams voluntarily
resigned. It further argued that, assuming it did fire
Williams, the record lacked evidence from which a
reasonable juror could find that its decision to fire him
evinced discriminatory intent. HOPE pointed to evidence
in the record militating against a finding of discriminatory
intent, including Williams’s testimony that Sokol’s racial
remark was “very much out of character,” Doc. 18-1 at
13, and interrogatory answers showing that immediately
after Williams’s separation, Sokol filled his position with
people of the same race as his.
In response, Williams argued that he was terminated
when he left the office following his confrontation with
Sokol. According to Williams, a reasonable jury could
find that race was at least a motivating factor in HOPE’s
decision to fire him because Sokol told him, “I can’t stand

5a
Appendix A
your black ass,” right before his termination. He further
argued that his strong work performance, HOPE’s lack of a
reason for firing him, the falsity of Sokol’s explanation that
he stopped showing up for work, and her testimony that
he was not required to work on the night of his graduation
all supported an inference of racial discrimination.
The district court granted HOPE’s motion. The court
ruled that under Smith v. Lockheed-Martin Corp., 644
F.3d 1321 (11th Cir. 2011), Williams failed to present a
convincing mosaic of circumstantial evidence that would
allow a reasonable jury to infer that HOPE fired him
because of his race.
This is Williams’s appeal.
II. STANDARD OF REVIEW
We review de novo a district court order granting a
motion for summary judgment, viewing the facts and all
reasonable inferences drawn therefrom in favor of the
non-moving party. Jones v. UPS Ground Freight, 683
F.3d 1283, 1291-92 (11th Cir. 2012). Summary judgment is
appropriate when a movant shows that there is “no genuine
dispute as to any material fact,” such that “the movant
is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). A genuine dispute of a material fact exists only
when “the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). “The
mere existence of a scintilla of evidence in support of
the plaintiff’s position will be insufficient; there must be

6a
Appendix A
evidence on which the jury could reasonably find for the
plaintiff.” Id. at 252.
III. DISCUSSION
Williams argues on appeal that the district court erred
in ruling that he failed to introduce sufficient evidence from
which a reasonable jury could find that HOPE’s decision to
terminate him was based on his race. Title VII prohibits
employers from terminating an employee “because of . . .
race.” 42 U.S.C. § 2000e-2(a)(1). An employer runs afoul of
this prohibition whenever race was at least “a motivating
factor” for the termination decision, “even though other
factors also motivated” it. Id. § 2000e-2(m). Section 1981
similarly “prohibits intentional race discrimination in the
making and enforcement of public and private contracts,
including employment contracts.” Ferrill v. Parker Grp.,
Inc., 168 F.3d 468, 472 (11th Cir. 1999). As a general rule,
discrimination claims brought pursuant to Title VII and
§ 1981 “are subject to the same standards of proof and
employ the same analytical framework.” Bryant v. Jones,
575 F.3d 1281, 1296 n.20 (11th Cir. 2009). 3
We typically evaluate employment discrimination
claims by applying the burden-shifting framework set forth
3. The fit between the standards that apply to claims and
defenses arising under the two statutes is nevertheless inexact. We
have held that “the 1991 mixed-motive amendments to Title VII do
not apply to § 1981 claims.” Mabra v. United Food & Commercial
Workers Local Union No. 1996, 176 F.3d 1357, 1358 (11th Cir. 1999).
We do not address this issue, however, because it does not affect our
disposition of this appeal.

7a
Appendix A
in McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).
We do not apply that framework here, however, because
Williams concedes in his brief that he “does not rely on
establishing a traditional McDonnell Douglas prima facie
case.” Appellant’s Br. at 36. But, as we have recognized,
“establishing the elements of the McDonnell Douglas
framework is not, and never was intended to be, the sine
qua non for a plaintiff to survive a summary judgment
motion.” Lockheed-Martin, 644 F.3d at 1328. Rather, a
“plaintiff will always survive summary judgment” by
“present[ing] circumstantial evidence that creates a
triable issue concerning the employer’s discriminatory
intent.” Id. “A triable issue of fact exists if the record,
viewed in a light most favorable to the plaintiff, presents
a convincing mosaic of circumstantial evidence that would
allow a jury to infer intentional discrimination by the
decisionmaker.”4 Id. (internal quotation marks omitted).
4. In his opening brief, Williams consistently conflates
the standards that we apply under McDonnell Douglas, LockheedMartin, and a third case, Quigg v. Thomas Cty. Sch. Dist., 814 F.3d
1227 (11th Cir. 2016). McDonnell Douglas and Lockheed-Martin
set forth alternative frameworks for analyzing “single-motive
claims[,] . . . also known as ‘pretext’ claims[, which] require a showing
that bias was the true reason for the adverse action.” Quigg, 814
F.3d at 1235. In contrast, we apply the framework described in
Quigg to “mixed-motive” employment discrimination claims, which
require a showing that “illegal bias, such as bias based on [race] or
gender, ‘was a motivating factor for’ an adverse employment action,
‘even though other factors also motivated’ the action.” Id. (quoting
42 U.S.C. § 2000e-2(m)). The district court analyzed Williams’s
claim under Lockheed-Martin, and Williams raised no argument in
his opening brief that the district court’s application of LockheedMartin was error. He has therefore abandoned the argument that

8a
Appendix A
Williams argues that a reasonable jury could find that
HOPE fired him because of his race because Sokol told
him, “I can’t stand your black ass,” just before she fired
him. Appellant’s Br. at 23. Williams also argues that a
reasonable jury could find intentional discrimination from
the falsity of HOPE’s explanation of his separation. We
address each of these arguments in turn.
A. Williams Has Failed to Present Sufficient Evidence
to Show That He Was Fired Because of His Race.
Williams argues that he has shown intentional
discrimination based on his testimony that Sokol told
him, “I can’t stand your black ass.” Doc. 18-1 at 11. We
disagree. Her comment evinces discriminatory animus
and is unbefitting of any workplace. But a reasonable
jury could not find that she fired him because of his race
based only on that statement because its content bears no
relation to the termination decision. Cf. Scott v. Suncoast
Beverage Sales, Ltd., 295 F.3d 1223, 1229 (11th Cir. 2002)
(“Although a comment unrelated to a termination decision
the mixed-motive “motivating factor” standard should apply instead.
See Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678, 681-82 (11th
Cir. 2014). We accordingly treat his claim as a “single-motive” claim.
In his reply brief, Williams argues that we should avoid
comparing his evidence to a mosaic. We do not consider arguments
raised for the first time in a reply brief. Id. at 682. We note
nonetheless that the term “‘convincing mosaic’ is not a legal test.”
Ortiz v. Werner Enters., Inc., 834 F.3d 760, 764-65 (7th Cir. 2016).
Rather, the phrase “was designed as a metaphor to illustrate why
courts should not try to differentiate between direct and indirect
evidence.” Id.

9a
Appendix A
may contribute to a circumstantial case for pretext, it will
usually not be sufficient absent some additional evidence
supporting a finding of pretext.” (citation omitted)).
Further, other evidence in the record counsels against
a finding that Sokol fired Williams because of his race.
He testified that her comment was “very much out of
character,” Doc. 18-1 at 13, and after his separation, she
filled his position with people of the same race. The record
evidence is thus insufficient for Williams to withstand
HOPE’s motion for summary judgment. 5
5. Williams also argues that another encounter between him
and Sokol shows her discriminatory intent: her refusal of his request
to use the restroom inside her home while he was there to paint her
deck pursuant to an agreement between them that was unrelated to
his employment at HOPE. In the district court, Williams recounted
that incident in the facts section of his brief opposing summary
judgment but raised no argument that the incident evidenced
intentional discrimination. The district court nonetheless explained
that evidence of that encounter failed to show that Williams was
fired because of his race:
Sokol did not tell . . . Williams that he could not use
the restroom inside her house because he is AfricanAmerican, and . . . Williams has submitted no evidence
demonstrating that . . . Sokol allowed Caucasian
individuals doing work at her house to use the restroom
inside. Therefore, this evidence does not give rise to
an inference of intentional race discrimination. In the
absence of other evidence suggesting that . . . Sokol
prohibited . . . Williams from using her restroom
because he is African-American, a reasonable jury
cannot infer discriminatory intent from this facially
neutral act that is removed in time and place from the
employment decision.

10a
Appendix A
We disagree with Williams’s argument that Damon
v. Fleming Supermarkets of Fla., Inc., 196 F.3d 1354
(11th Cir. 1999), requires us to decide that his evidence is
sufficient to support a finding of intentional discrimination.
There, two former supermarket employees brought an
age-discrimination suit against the supermarket, their
former employer, after a district manager terminated
them. Damon, 196 F.3d at 1357-58. Within one year of
assuming the district manager position, the manager
fired or demoted “five older, more experienced [workers],”
including the plaintiffs, “and replaced them w ith
[employees] who were younger and less experienced.” Id.
at 1358. One of the younger replacements testified that
the district manager had told him immediately after
terminating one of the two plaintiffs (and three months
after terminating the other) that “what the company
needed was aggressive young [people] like [the younger
replacement] to be promoted.” Id. at 1359, 1363 (internal
quotation marks omitted). We decided based on this
and other evidence in the record that the two former
supermarket employees survived summary judgment.
Id. at 1366.

Doc. 22 at 16. We agree with the district court. On appeal, Williams
argues that Sokol’s refusal of his request shows discriminatory
animus because it exemplifies the historical mistreatment of AfricanAmerican workers in the South. But Williams did not raise that
argument in the district court, and we therefore decline to address it
here. Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324, 1331 (11th
Cir. 2004) (“This Court has repeatedly held that an issue not raised
in the district court and raised for the first time in an appeal will not
be considered by this court.” (internal quotation marks omitted)).

11a
Appendix A
Williams contends that Damon supports his case
because there the district manager’s statement was
considered as probative circumstantial evidence that
the manager impermissibly discriminated against the
plaintiff whom the manager fired three months before
making the statement. See id. at 1363. Williams argues
that the closer temporal proximity between Sokol’s
statement and his termination suggests that he too should
survive summary judgment. But this argument misses
the mark because Williams has presented much weaker
evidence of intentional discrimination than the Damon
plaintiffs did. Most significantly, the district manager’s
statement in Damon was more closely related to the
termination decision because it implied that the protected
characteristic generally affected the manager’s personnel
decisions. See id. at 1362 (“The comment . . . arguably
suggests that [the manager] had an ageist preference
for young managers. Given the substance, context, and
timing of [the] comment, if credited, we find it to be a
significant piece of circumstantial evidence.” (emphasis
added)). In contrast, Sokol’s statement does not imply
that race had any influence on Sokol’s personnel decisions,
as a general matter or in Williams’s case. Accordingly,
temporal proximity aside, without additional evidence,
we must conclude that Sokol’s remark was unconnected
to her termination decision.
For similar reasons, Williams’s reliance on Mora v.
Jackson Mem’l Found., Inc., 597 F.3d 1201 (11th Cir. 2010),
is misplaced. There, a plaintiff sued her former employer,
alleging that its chief executive fired her because of her
age. Mora, 597 F.3d at 1202. When the chief executive
fired the plaintiff, the executive stated, “I need someone

12a
Appendix A
younger I can pay less . . . I need an Elena [Quevedo, a 25
year old employee].” Id. at 1203 (internal quotation marks
omitted). The executive further told the plaintiff, “[Y]ou
are very old, you are very inept. What you should be doing
is taking care of old people. They really need you. I need
somebody younger that I can pay less and I can control.”
Id. (internal quotation marks omitted). In speaking about
the plaintiff to a different employee, the executive also said
that the plaintiff “is too old to be working here anyway.”
Id. (internal quotation marks omitted). We concluded that
a reasonable jury could take these statements “at face
value” and find that the chief executive fired the plaintiff
because of her age. Id. at 1205. But in the instant case,
unlike in Mora, we cannot conclude that Sokol based her
termination decision on Williams’s race simply by taking
Sokol’s statement “at face value.” See id. Mora therefore
offers Williams little help.
B. A Reasonable Jury Could Not Find Intentional
Discrimination Based on The Falsity of HOPE’s
Explanation of His Separation.
As an alternative to relying solely on Sokol’s remark,
Williams argues that under Reeves v. Sanderson
Plumbing Products, Inc., 530 U.S. 133 (2000), we may
find intentional discrimination from the falsity of HOPE’s
explanation that he was terminated when he abandoned
his job and stopped showing up for work. Appellant’s Br.
at 32. Even if we were to agree with Williams that HOPE’s
explanation of his resignation is unworthy of credence,
we would still conclude that the record lacked sufficient
evidence from which a reasonable jury could find that he
was fired because of his race.

13a
Appendix A
The Reeves Court, applying McDonnell Douglas,
recognized that “a plaintiff’s prima facie case [under
McDonnell Douglas], combined with sufficient evidence
to find that the employer’s asserted justification is
false, may permit the trier of fact to conclude that the
employer unlawfully discriminated.” Reeves, 530 U.S. at
148 (emphasis added). But Williams has presented much
weaker evidence of intentional discrimination than would
a plaintiff who had established a prima facie case under
McDonnell Douglas. To establish a prima facie case under
the McDonnell Douglas burden-shifting framework, a
plaintiff must show: “(1) that she belongs to a protected
class, (2) that she was subjected to an adverse employment
action, (3) that she was qualified to perform the job in
question, and (4) that her employer treated similarly
situated employees outside her class more favorably.”
Lewis v. City of Union City, 918 F.3d 1213, 1220-21 (11th
Cir. 2019) (en banc) (internal quotation marks omitted).6
Establishing the prima facie case “raises an inference of
discrimination,” but it does so “only because we presume
these acts, if otherwise unexplained, are more likely than
not based on the consideration of impermissible factors.”
Tex. Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248, 254
(1981) (internal quotation marks omitted). Williams’s
evidence is weaker than that offered by a plaintiff who has
6. “If the plaintiff succeeds in making out a prima facie
case, the burden shifts to the defendant to articulate a legitimate,
nondiscriminatory reason for its actions. Finally, should the
defendant carry its burden, the plaintiff must then demonstrate that
the defendant’s proffered reason was merely a pretext for unlawful
discrimination, an obligation that merges with the [plaintiff’s]
ultimate burden of persuading the [factfinder] that she has been the
victim of intentional discrimination.” Id. at 1221.

14a
Appendix A
established a prima facie case under McDonnell Douglas
because, as we have explained, the record contains a
paucity of evidence to prove that Sokol’s decision to fire
Williams was based on his race. Though we acknowledge
the possibility that a plaintiff who makes no attempt to
establish a prima facie case under McDonnell Douglas
may nonetheless survive summary judgment based in
part on proof that the employer’s proffered justification
is false, we conclude that such a plaintiff would need
stronger evidence of intentional discrimination than
Williams has offered in the instant case. See Flowers v.
Troup Cty., Ga., Sch. Dist., 803 F.3d 1327, 1337-38 (11th Cir.
2015) (concluding that a plaintiff failed to offer sufficient
evidence to prove “a causal connection between his race
and his termination” when the plaintiff showed that the
defendant’s justification for his termination “may have
been pretext of something” but did not show that the
justification “was pretext of discrimination on the basis
of his race”).7
IV. CONCLUSION
For the foregoing reasons, we affirm the district
court’s order granting HOPE’s motion for summary
judgment.
AFFIRMED.

7. We make no attempt to demarcate the quantum of
evidence necessary in such a case to go to trial, we merely decide
that Williams’s evidence is insufficient.

15a
Appendix B
APPENDIX B — MEMORANDUM
OPINION OF
THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ALABAMA,
SOUTHERN DIVISION, FILED JULY 31, 2018
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA,
SOUTHERN DIVISION
Case No.: 2:17-cv-00468-ACA
KHALIL WILLIAMS,
Plaintiff,
v.
HOUSING OPPORTUNITIES FOR PERSONS
WITH EXCEPTIONALITIES,
Defendant.
MEMORANDUM OPINION
In this employment discrimination action, Plaintiff
Khalil Williams claims that his former employer,
Defendant Housing Opportunities for Persons with
Exceptionalities (“HOPE”), terminated his employment
because he is African-American. Mr. Williams asserts
Title VII and 42 U.S.C. § 1981 race discrimination claims
against HOPE.
Before the court is HOPE’s motion for summary
judgment. (Doc. 16). The parties have fully briefed the

16a
Appendix B
motion. (Docs. 17, 19, 20). For the reasons explained below,
the court GRANTS the motion.
I.

STANDARD OF REVIEW

“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “The moving party
bears the initial burden of demonstrating the absence of
a genuine dispute of material fact.” FindWhat Inv’r Grp.
v. FindWhat.com, 658 F.3d 1282, 1307 (11th Cir. 2011)
(citing Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106 S.
Ct. 2548, 91 L. Ed. 2d 265 (1986)). A “material fact” is
one that “might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986).
To demonstrate that there is a genuine dispute as
to a material fact that precludes summary judgment, a
party opposing a motion for summary judgment must cite
“to particular parts of materials in the record, including
depositions, documents, electronically stored information,
affidavits or declarations, stipulations (including those
made for purposes of the motion only), admissions,
interrogatory answers, or other materials.” Fed. R. Civ.
P. 56(c)(1)(A); see Anderson, 477 U.S. at 252 (“[A] party
opposing a properly supported motion for summary
judgment may not rest upon mere allegation or denials
of his pleading, but must set forth specific facts showing
that there is a genuine issue for trial.”).

17a
Appendix B
The court views the evidence in the light most
favorable to the non-moving party. Baas v. Fewless, 886
F.3d 1088, 1091 (11th Cir. 2018). The court “may not weigh
conflicting evidence or make credibility determinations of
its own.” FindWhat Inv’r Grp., 658 F.3d at 1307. “If the
record presents disputed issues of fact, the court may not
decide them; rather, it must deny the motion and proceed
to trial.” Id. at 1307.
II. BACKGROUND
Mr. Williams is African-American. (Doc. 18-1, p. 59).
He worked for HOPE on two separate occasions. HOPE
Executive Director Debra Sokol originally hired Mr.
Williams in 2000. (Doc. 18-1, p. 5). Mr. Williams left HOPE
in 2006 to pursue other career opportunities. (Doc. 18-1,
p. 4). Ms. Sokol hired Mr. Williams again in 2011, and Mr.
Williams worked for HOPE until May 2016. (Doc. 18-1, pp.
5-6; Doc. 18-3, p. 6).
When he returned to HOPE in 2011, Mr. Williams
worked as a Direct Care Provider at a group home that
HOPE operated for three autistic and mentally challenged
adults. (Doc. 18-1, p. 8). As a Direct Care Manager, Mr.
Williams assisted the residents with daily activities,
including household chores, personal grooming, meal
preparation, and transportation to social activities and
doctor’s appointments. (Doc. 18-1, pp. 8, 26). Mr. Williams
also was Medication Administration Certified (MAC)
which meant that he could administer medication to the
group home residents. (Doc. 18-1, p. 7).

18a
Appendix B
Mr. Williams was regularly scheduled to work at the
group home on Friday evenings from 10:00 p.m. until 8:00
a.m. and on Saturday and Sunday evenings from 8:00 p.m.
until 8:00 a.m. (Doc. 18-1, p. 7). When he was on duty, Mr.
Williams was the only HOPE staff person at the group
home. (Doc. 18-1, p. 8).
Ms. Sokol was Mr. Williams’s supervisor during both
periods of employment. (Doc. 18-1, p. 5). Mr. Williams
received positive performance reviews and was not subject
to disciplinary action or any kind of adverse performance
review. (Doc. 18-1, p. 8). Mr. Williams “had no major
issues” with Ms. Sokol before HOPE terminated his
employment. (Doc. 18-1, p. 7).
Mr. Williams believes that his relationship with Ms.
Sokol suffered after he performed a side job for Ms.
Sokol. (Doc. 18-1, pp. 21, 25). Sometime shortly before
his employment with HOPE ended, Ms. Sokol hired Mr.
Williams to repaint the deck on her home. (Doc. 18-1, p.
21). According to Mr. Williams, Ms. Sokol told him that
he could not use the restroom inside her house while he
was working on the deck, but he could go to the bathroom
outside. (Doc. 18-1, p. 21). Mr. Williams ended up driving
to a nearby McDonald’s to use the restroom. (Doc. 18-1,
p. 82).
After Mr. Williams completed the deck project, Ms.
Sokol noticed that Mr. Williams had not painted the cracks
between the deck boards. (Doc. 18-1, pp. 22-23). Mr.
Williams offered to paint between the deck boards for an
additional $100.00. (Doc. 18-1, p. 22). Ms. Sokol declined

19a
Appendix B
the offer, and she paid Mr. Williams the full amount to
which they originally agreed for the job, even though she
considered the job incomplete. (Doc. 18-1, pp. 22-23; Doc.
18-2, p. 9).
On Wednesday, May 4, 2016, Ms. Sokol called Mr.
Williams and asked him to cover a shift for another
employee on the evening of Thursday, May 5, 2016. (Doc.
18-1, pp. 8-9; Doc. 18-2, pp. 19-21). Mr. Williams told Ms.
Sokol that he could not work the shift because he planned
to attend his graduation from trade school that evening.
(Doc. 18-1, p. 9). Mr. Williams alleges that Ms. Sokol told
him that if he did not appear for the Thursday evening
shift, then he should not come back to work. (Doc. 18-1, p.
10). Specifically, he testified that Ms. Sokol said, “Either
you come in or don’t come back.” (Doc. 18-1, p. 10). Ms.
Sokol testified that after Mr. Williams told her he could not
work because of graduation, she “told him congratulations
and moved on.” (Doc. 18-2, p. 21). In addition, Ms. Sokol
testified that Mr. Williams was not required to work on
Thursday, May 5, 2016 because he was graduating. (Doc.
18-2, p. 36).
According to Mr. Williams, Ms. Sokol called him on
May 5, 2016 and told him that when he was hired, Mr.
Williams signed paperwork agreeing to work overtime
if he was available. (Doc. 18-1, p. 31). Mr. Williams asked
to see the paper. (Doc. 18-1, p. 10). Ms. Sokol denied his
request and told Mr. Williams that he was “no longer
welcome at this office.” (Doc. 18-1, p. 10). Then, Ms. Sokol
told Mr. Williams “to come on over and we’ll read the
paper.” (Doc. 18-1, p. 10).

20a
Appendix B
When Mr. Williams arrived at the office, Ms. Sokol
suggested that they go in the kitchenette to read the
paper. (Doc. 18-1, p. 11). When Mr. Williams and Ms. Sokol
got to the kitchenette, Mr. Williams “dropped [his] head
and let [Ms. Sokol] start to read.” (Doc. 18-1, p. 11). Then,
the following exchange occurred:
When she started to read the paper, she said
if available, can you work overtime? That’s
when I said, Ms. Deborah, we need to stop
right there? Stop? I said yes, ma’am. I said the
paper specifically says if available, and I have a
legitimate excuse why I’m not available. Okay.
After that, that’s when she cursed me. She said,
I can’t stand your black ass. I called her name,
Ms. Deborah. Okay. After I said Ms. Deborah,
that’s when she hauled off and went berserk. . . .
(Doc. 18-1, pp. 11-12). Mr. Williams and Ms. Sokol then
argued for two or three minutes about whether Ms. Sokol
would give Mr. Williams a copy of the paperwork. (Doc.
18-1, p. 13). Ms. Sokol slammed a book on the ground.
(Doc. 18-1, p. 13). Ms. Sokol picked up the book and said,
“I don’t give a damn about your damn kids.” (Doc. 18-1,
p. 14). Ms. Sokol told Mr. Williams to “get out of here. Get
out of this office.” (Doc. 18-1, p. 14). Then, Ms. Sokol ran
in her office, slammed and locked her door, and got under
her desk. (Doc. 18-1, p. 14).
Mr. Williams had no communication with anyone at
HOPE after he left Ms. Sokol’s office on May 5, 2016.
(Doc. 18-1, pp. 14-15). Mr. Williams did not report for his

21a
Appendix B
scheduled shifts on Friday, May 6, 2016 or the following
Saturday and Sunday. (Doc. 18-1, p. 15). He contends that
he did not report to work because he believed that Ms.
Sokol had fired him. (Doc. 18-1, p. 15).
About a week later, Mr. Williams picked up his last pay
check from the payroll service and returned his key to the
group home. (Doc. 18-1, p. 15). HOPE hired an AfricanAmerican employee to replace Mr. Williams. (Doc. 18-2,
pp. 22-23; Doc. 18-3, pp. 4-5).
III. DISCUSSION
Mr. Williams alleges that HOPE discriminated
against him because of his race in violation of Title VII
and 42 U.S.C. § 1981. The court analyzes Mr. Williams’s
Title VII and § 1981 race discrimination claims together
under the same framework. Jimenez v. Wellstar Health
Sys., 596 F.3d 1304, 1312 (11th Cir. 2010) (“This Circuit has
routinely and systematically grouped Title VII and § 1981
claims for analytic purposes.”); Standard v. A.B.E.L.
Servs., 161 F.3d 1318, 1330 (11th Cir. 1998) (“Both of these
statutes have the same requirements of proof and use the
same analytical framework, therefore we shall explicitly
address the Title VII claim with the understanding that
the analysis applies to the § 1981 claim as well.”).
“A plaintiff may prove a claim of intentional
discrimination through direct evidence, circumstantial
evidence, or through statistical proof.” Rioux v. City of
Atlanta, 520 F. 3d 1269, 1274 (11th Cir. 2008). Where,
as here, a plaintiff relies on circumstantial evidence to

22a
Appendix B
establish discriminatory intent, a district court may use
the McDonnell Douglas analytical framework to evaluate
the sufficiency of the plaintiff’s evidence. Flowers v. Troup
Cty., Ga. School Dist., 803 F.3d 1327, 1335-36 (11th Cir.
2015). Under this burden-shifting framework, “a plaintiff
first must make out a prima facie case of discrimination
that ‘in effect creates a presumption that the employer
unlawfully discriminated against the employee.’“ Flowers,
803 F.3d at 1336 (quoting Texas Dep’t of Cmty. Affairs v.
Burdine, 450 U.S. 248, 254, 101 S. Ct. 1089, 67 L. Ed. 2d
207 (1981)). If a plaintiff presents a prima facie case, then
the burden shifts to the defendant to articulate a nondiscriminatory basis for the employment action at issue.
If the defendant carries this light burden, then the burden
returns to the plaintiff to prove that the defendant’s
stated reason for its conduct is pretext for intentional
discrimination. Flowers, 803 F.3d at 1336.
Although it is one tool for examining evidence
of discriminatory intent, “‘the McDonnell Douglas
framework is not, and never was intended to be, the sine
qua non for a plaintiff to survive a summary judgment
motion’ in Title VII cases.” Flowers, 803 F.3d at 1336
(quoting Smith v. Lockheed-Martin Corp., 644 F.3d 1321,
1328 (11th Cir. 2011)). “The critical decision that must
be made is whether the plaintiff has ‘create[d] a triable
issue concerning the employer’s discriminatory intent.’“
Flowers, 803 F.3d at 1336 (quoting Lockheed-Martin Corp.,
644 F.3d at 1328). A convincing mosaic of circumstantial
evidence may be sufficient to allow a jury to infer that
discriminatory intent motivated an employment decision.
Lockheed-Martin Corp., 644 F.3d at 1328. “Whatever form

23a
Appendix B
it takes, if the circumstantial evidence is sufficient to raise
‘a reasonable inference that the employer discriminated
against the plaintiff, summary judgment is improper.’“
Chapter 7 Trustee v. Gate Gourmet, Inc., 683 F.3d 1249,
1256 (11th Cir. 2012) (quoting Lockheed-Martin Corp.,
644 F.3d at 1328).
Here, the parties agree that the McDonnell Douglas
framework is not appropriate for resolution of Mr.
Williams’s claims. (See Doc. 19, pp. 10-11; Doc. 20, pp. 3-4).
Instead, Mr. Williams contends that summary judgment is
improper for two reasons: (1) a factual dispute exists about
whether HOPE actually terminated his employment, and
(2) he has presented a convincing mosaic of circumstantial
evidence from which a reasonable jury could infer racial
animus. Neither argument is persuasive.
First, Mr. Williams submits that summary judgment
is improper solely because there is a factual dispute about
whether HOPE terminated his employment. (Doc. 19, pp.
11-12). Mr. Williams claims that Ms. Sokol terminated his
employment. (Doc. 18-1, pp. 10, 15). Ms. Sokol testified that
Mr. Williams’s employment with HOPE ended because
he did not report to work for scheduled shifts. (Doc. 18-2,
pp. 21, 37). This factual dispute, standing alone, does not
preclude summary judgment. For purposes of summary
judgment, the court accepts as true Mr. Williams’s
testimony that Ms. Sokol fired him. But the analysis
does not end there. To survive summary judgment, Mr.
Williams must produce sufficient evidence from which a
trier of fact may infer that HOPE terminated him because
of his race. See Ferguson v. Veterans Admin., 723 F.2d 871,

24a
Appendix B
872 (11th Cir. 1984) (“To prevail under Title VII plaintiff
would have to show discrimination by h[is] employer.”);
see also Damon v. Fleming Supermarkets of Fla., Inc.,
196 F.3d 1354, 1361 (11th Cir. 1999) (“We are not in the
business of adjudging whether employment decisions
are prudent or fair. Instead, our sole concern is whether
unlawful discriminatory animus motivates a challenged
employment decision.”).
Mr. Williams attempts to establish discriminatory
intent through a mosaic of circumstantial evidence. (See
Doc. 19, pp. 10-13). Mr. Williams argues that a reasonable
jury could conclude that intentional race discrimination
motivated HOPE’s decision to terminate his employment
based on three categories of circumstantial evidence: (1)
Ms. Sokol’s statement, “I cannot stand your black ass,”
(2) Mr. Williams’s strong work history coupled with the
absence of an articulated reason for termination, Ms.
Sokol’s testimony that Mr. Williams stopped showing up
for work, and Ms. Sokol’s admission that Mr. Williams
was not obligated to work an extra shift, and (3) Ms.
Sokol’s refusal to allow Mr. Williams to use the restroom
inside her home while he painted her deck. Mr. Williams’s
evidence falls short.
Ms. Sokol’s comment on Thursday, May 5, 2016, that
she “can’t stand [Mr. Williams’s] black ass” is relevant
circumstantial evidence. Construing the facts in the
light most favorable to Mr. Williams, Ms. Sokol fired him
either on Wednesday May 4, 2016 when she told him to
report to work the following day or to not “come back”
or on Thursday May 5, 2016 when she told him to “get

25a
Appendix B
out” of the office. (Doc. 18-1, pp. 10, 14-15). Thus, Ms.
Sokol made the racially offensive comment one day after
she fired Mr. Williams or on the day she terminated
his employment. Under either scenario, the comment
is “probative as to whether [race] animus motivated the
decision to terminate” Mr. Williams. See Damon, 196 F.3d
at 1363 (manager’s statement that he wanted to promote
“aggressive, young men” immediately after one employee’s
termination and three months after another employee’s
termination was “a significant piece of circumstantial
evidence” from which a jury could infer age animus);
Jones v. Bessemer Carraway Med. Ctr., 151 F.3d 1321,
1323 n.11 (11th Cir. 1998) (“[L]anguage not amounting to
direct evidence, but showing some racial animus, may be
significant” circumstantial evidence.).
Although suggestive of discriminatory animus, under
the circumstances of this case, Ms. Sokol’s comment does
not support an inference of intentional race discrimination
with respect to Williams’s termination. In Damon v.
Fleming Supermarkets of Florida, Inc., 196 F.3d 1354
(11th Cir. 1999), the Eleventh Circuit reversed the trial
court’s decision to grant summary judgment in an age
discrimination case because the Court concluded that the
plaintiffs had presented sufficient circumstantial evidence
of age animus. Id. at 1357, 1361-1366. In Damon, one of
the pieces of circumstantial evidence that the plaintiffs
proffered was a supervisor’s comment that “what the
company needed was aggressive young men . . . to be
promoted.” Id. at 1359. Regarding the comment, the
Eleventh Circuit explained:

26a
Appendix B
Far from being a stray remark, the comment may
evince probative evidence of the state of mind
of the decision-maker at the time of Kanafani’s
termination. The comment also arguably
suggests that Soto had an ageist preference for
young managers. Given the substance, context,
and timing of Soto’s comment, if credited, we
find it to be a significant piece of circumstantial
evidence.
Id. at 1362. The Court of Appeals found that the comment
was “probative as to whether age animus motived the
decision to terminate” another plaintiff because “the
remark (1) was allegedly made only three months after
Damon was terminated, (2) immediately followed the
termination of someone similarly situated to Damon and
in the same protected class, and (3) came from the same
decision-maker responsible for Damon’s termination.” Id.
at 1363.
In Damon, the ageist comment was not the only piece
of circumstantial evidence on which the plaintiffs relied.
In addition to the comment, the plaintiffs presented
evidence that the decisionmaker had “discriminatory
animus towards older store managers under his direct
supervision.” Id. at 1361. Specifically, within a one-year
period, the employer terminated or demoted four “older,
highly experienced store managers” and replaced each of
the employees with younger individuals. Damon, 196 F.3d
at 1361. The plaintiffs in Damon also “offered evidentiary
support by which a reasonable jury could conclude that the
specific reasons for termination given by [the employer]
were a pretext.” Damon, 196 F.3d at 1363.

27a
Appendix B
As explained in greater detail below, see infra pp. 1418, unlike the Damon plaintiffs, Mr. Williams has offered
no additional relevant circumstantial evidence from
which a jury could infer discriminatory animus. Without
this additional evidence, the court finds that Ms. Sokol’s
comment may be evidence of Ms. Sokol’s underlying
discriminatory attitude and racial bias generally, but the
comment alone does not support an inference that HOPE
terminated Mr. Williams because he is African-American.
The circumstances of this case are analogous to the
facts in Jones v. Bessemer Carraway Medical Center, 151
F.3d 1321 (1998). In Jones, on petition for rehearing, the
Eleventh Circuit found that a Title VII plaintiff failed to
establish an inference that her employer terminated her
because of her race. Id. at 1323. The plaintiff submitted,
and the district court excluded from trial, evidence that
one week before the plaintiff’s termination, her supervisor
said, “You black girls make me sick” and “You black girls
get away with everything.” Id. at 1322-23, 1325. The
Eleventh Circuit concluded that even if the district court
erred in excluding the statements, the statements were
insufficient to permit an inference that the plaintiff’s
termination was “more likely than not . . . based on an
illegal discriminatory criterion.” Id. at 1323. The Court
of Appeals noted that there was no evidence that the
supervisor’s decisions “had historically demonstrated
racial discrimination” or that another supervisor “had
a history of racial statements or of racial discrimination
in her decisions.” Id. at 1323-24. Moreover, the Eleventh
Circuit explained that:

28a
Appendix B
In this disciplinary discharge case, no direct
evidence of discrimination was submitted at
trial. No statistical evidence was presented. No
evidence shows that, after Plaintiff was fired,
she was replaced by a nonminority employee.
No pattern-or-practice of discrimination
was evidenced or attempted to be evidenced.
And, most important, no similarly situated,
nonminority employee was identified who was
treated better than Plaintiff.
Id. at 1324. The record is similarly deficient here. Mr.
Williams has offered no evidence demonstrating that
HOPE replaced him with a nonminority. Mr. Williams has
submitted no evidence that HOPE engaged in a pattern
and practice of discrimination. Mr. Williams has not
identified a similarly situated, nonminority employee who
received more favorable treatment. To be clear, Ms. Sokol’s
comment is offensive and inappropriate in the workplace
or any other setting. But, “without more there is nothing
to suggest a causal connection between [Mr. Williams’s]
race and his termination.” Flowers, 803 F.3d at 1338.
To carry his burden of establishing a question of
fact regarding discriminatory intent, Mr. Williams
argues that his reputable work history and inaccuracies,
inconsistencies, or contradictions in HOPE’s explanation
for his termination establishes that racial discrimination
was the real reason for the adverse employment action.
Specifically, Mr. Williams submits that:
Plaintiff’s excellent work performance, the
absence of any other articulated reason for

29a
Appendix B
termination, the falsity of Sokol’s explanation
that Plaintiff simply stopped showing up
for work, and her admission that he was not
obligated to work on the night of his graduation
further support an inference of intentional
discrimination.
(Doc. 19, p. 10). Mr. Williams has not articulated how
this evidence supports an inference of intentional
discrimination. See Lockheed-Martin Corp., 644 F.3d at
1328 n. 25 (“An inference, is not a suspicion or a guess. It is
a reasoned, logical decision to conclude that a disputed fact
exists on the basis of another fact.”) (internal quotation
marks, citation, and alteration omitted).
The record supports Mr. Williams’s contention that he
was a good employee. Ms. Sokol testified that Mr. Williams
“always showed up for his shift unless he requested off,”
and she received no complaints about his job performance.
(Doc. 18-2, p. 15). Ms. Sokol gave Mr. Williams positive
performance evaluations. (Doc. 18-1, p. 8). Mr. Williams
worked for Ms. Sokol for 11 years, and with the exception
of the disagreement that led to his termination, Ms. Sokol
made no derogatory comments about his race, and she
subjected him to no disciplinary action or reprimand.
(Doc. 18-1, pp. 7-8). No reasonable juror could infer from
this evidence that HOPE fired Mr. Williams because he
is African-American.
Ms. Sokol testified that Mr. Williams’s employment
ended because “[h]e didn’t show up” for his regularly
scheduled shift the weekend of May 6-8, 2016. (Doc.

30a
Appendix B
18-2, p. 21). Mr. Williams posits that this testimony
is false. Whether Ms. Sokol’s testimony is false is a
credibility determination for the trier of fact not for the
parties or the court. Again, for purposes of summary
judgment, the court has viewed the evidence in the light
most favorable to Mr. Williams and has concluded that
HOPE terminated his employment. This factual dispute
as to why he was terminated does not give rise to an
inference of race discrimination. Neither does Ms. Sokol’s
testimony that Mr. Williams was not required to work on
the night he had graduation. Through this evidence, Mr.
Williams appears to contest the truthfulness of HOPE’s
justification for the adverse employment action. But
in this case, HOPE has not articulated a basis for Mr.
Williams’s termination because it is HOPE’s position that
Mr. Williams abandoned his job. Therefore, there is no
legitimate, non-discriminatory reason for Mr. Williams
to rebut. Even if HOPE had proferred a race-neutral
justification for Mr. Williams’s termination and even if
Mr. Williams had identified a contradiction in HOPE’s
asserted reason for his termination, this evidence would
not assist Mr. Williams without other evidence suggesting
“that discrimination was the real reason” for the adverse
action. Brooks v. Cty. Comm’n of Jefferson Cty., Ala., 446
F.3d 1160, 1163 (11th Cir. 2006) (quoting St. Mary’s Honor
Ctr. v. Hicks, 509 U.S. 502, 515, 113 S. Ct. 2742, 125 L. Ed.
2d 407 (1993)); see also Flowers, 803 F.3d at 1339 (“The
burden placed on Title VII plaintiffs to produce additional
evidence suggesting discrimination after contradicting
their employer’s stated reasons is not great, but neither
is it nothing. Though we do not require the blindered
recitation of a litany, we cannot ignore the failure to

31a
Appendix B
present evidence of discrimination.”) (internal quotation
marks and citation omitted).
Mr. Williams does not explicitly argue that Ms. Sokol’s
refusal to let him use the bathroom inside her home is
circumstantial evidence of racial animus. (See Doc. 19,
pp. 10-13). But Mr. Williams includes the incident in his
statement of facts and states that the encounter is an
example of another occasion when Ms. Sokol “engaged in
racially offensive conduct.” (Doc. 19, p. 9). Therefore, the
court briefly addresses this evidence and explains why the
evidence is not probative of discriminatory intent.
Ms. Sokol did not tell Mr. Williams that he could
not use the restroom inside her house because he is
African-American, and Mr. Williams has submitted no
evidence demonstrating that Ms. Sokol allowed Caucasian
individuals doing work at her house to use the restroom
inside. Therefore, this evidence does not give rise to an
inference of intentional race discrimination. In the absence
of other evidence suggesting that Ms. Sokol prohibited Mr.
Williams from using her restroom because he is AfricanAmerican, a reasonable jury cannot infer discriminatory
intent from this facially neutral act that is removed in time
and place from the employment decision.
In sum, Mr. Williams has not presented sufficient
circumstantial evidence that would allow a jury to infer
that HOPE terminated his position because of his race.
Therefore, HOPE is entitled to judgment as a matter
of law on Mr. Williams’s Title VII and § 1981 race
discrimination claims.

32a
Appendix B
Because Mr. Williams has not created a triable issue
of fact concerning HOPE’s discriminatory intent, Mr.
Williams’s Title VII and § 1981 claims fail as a matter of
law. Thus, the court does not analyze HOPE’s alternative
argument that collateral estoppel bars Mr. Williams’s
§ 1981 claim. (See Doc. 17, pp. 16-19).
IV. CONCLUSION
For the reasons stated above, the court finds that
there is no genuine issue of material fact and HOPE is
entitled to judgment as a matter of law. Accordingly, the
court GRANTS HOPE’s motion for summary judgment.
(Doc. 16). The Court will enter a separate order consistent
with this memorandum opinion.
DONE and ORDERED this July 31, 2018.
/s/ Annemarie Carney Axon
ANNEMARIE CARNEY AXON
UNITED STATES DISTRICT
JUDGE

33a
APPENDIX C —Appendix
DENIAL COF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED
SEPTEMBER, 10, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13600-FF
KHALIL WILLIAMS,
Plaintiff-Appellant,
v.
HOUSING OPPORTUNITIES FOR PERSONS
WITH EXCEPTIONALITIES,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Alabama
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIA M PRYOR, JILL PRYOR and
GRANT, Circuit Judges.
PERCURIAM:
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court having

34a
Appendix C
requested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Panel Rehearing is also
denied. (FRAP 40)
ENTERED FOR THE COURT:
/s/
UNITED STATES DISTRICT
JUDGE

